1a
APPENDIX A
Court of Appeal, Second Appellate District, Division
Two - No. B296413
S267574
IN THE SUPREME COURT OF CALIFORNIA
En Banc
_________________________________________________
WENDY SANTANA, Plaintiff and Respondent,
v.
POSTMATES, INC., Defendant and Appellant.
_________________________________________________
The petition for review is denied.

CANTIL-SAKAUYE
Chief Justice
[Filed April 14, 2021]

2a
APPENDIX B
Filed 1/29/21
NOT TO BE PUBLISHED IN THE OFFICIAL
REPORTS
California Rules of Court, rule 8.1115(a),
prohibits courts and parties from citing or relying
on opinions not certified for publication or ordered
published, except as specified by rule 8.1115(b).
This opinion has not been certified for publication
or ordered published for purposes of rule 8.1115.
IN THE COURT OF APPEAL OF THE STATE OF
CALIFORNIA
SECOND APPELLATE DISTRICT
DIVISION FIVE
________________________
WENDY SANTANA,
Plaintiff and Respondent,
v.
POSTMATES, INC.,
Defendant and Appellant.
________________________
B296413
(Los Angeles County
Super. Ct. No. BC720151)
________________________
APPEAL from an order of the Superior Court
of Los Angeles County. Rafael A. Ongkeko, Judge.
Affirmed.

3a
Gibson, Dunn & Crutcher, Theane Evangelis,
Michele L. Maryott, Bradley J. Hamburger and
Dhananjay S. Manthripragada for Defendant and
Appellant.
Parris Law Firm, R. Rex Parris, Kitty K.
Szeto, John M. Bickford, Michelle J. Lopez and Alexander R. Wheeler for Plaintiff and Respondent.
___________________________
Postmates, Inc. (Postmates) appeals from an order denying its petition for arbitration in a representative action brought by respondent Wendy Santana under the Labor Code Private Attorneys General
Act of 2004 (PAGA), Labor Code section 2698 et seq. 1
In denying the petition, the trial court followed our
Supreme Court’s decision in Iskanian v. CLS Transportation Los Angeles, LLC (2014) 59 Cal.4th 348 (Iskanian), which, among other things, held that: (1) an
employee’s right to bring a representative action under the PAGA is unwaivable under California law,
and (2) this state law rule is not preempted by the
Federal Arbitration Act (FAA), title 9 United States
Code section 1 et seq.
Postmates argues that our Supreme Court’s
holding in Iskanian was subsequently abrogated by
the United States Supreme Court’s decision in Epic
Sys. Corp. v. Lewis (2018) __ U.S. __ [138 S.Ct. 1612]
(Epic Systems). Along with every published Court of
Appeal decision that has decided this issue, we reject
the argument. Epic Systems did not consider the
same issue concerning the nonwaivable nature of
1

Subsequent undesignated statutory references are to the Labor Code.

4a
PAGA claims that Iskanian decided. We must therefore follow our Supreme Court’s holding.

5a
BACKGROUND
1.

The Arbitration Agreement

Santana began working as a courier for Postmates in September 2017. 2 As a courier, she delivered
products from local merchants to customers who
placed orders through Postmates’s on-line platform.
As a condition of working for Postmates, Santana executed a “Fleet Agreement” governing her employment (Employment Agreement). The Employment Agreement included an arbitration provision in
which Santana and Postmates “mutually agree[d] to
resolve any disputes between them exclusively
through final and binding arbitration instead of filing
a lawsuit in court.” 3 The arbitration provision stated
that it was “governed exclusively by the [FAA] and
shall apply to any and all claims between the Parties,
including but not limited to . . . the Contractor’s classification as an independent Contractor.”
The arbitration provision included a class action waiver and a representative action waiver. The
representative action waiver stated that the parties
agreed that “by entering into this Agreement, they
waive their right to have any dispute or claim
brought, heard or arbitrated as a representative action, or to participate in any representative action,
and an arbitrator shall not have any authority to arbitrate a representative action.”
2

Santana’s complaint uses the term “driver.” Postmates refers to its drivers as “couriers.” Both parties use the term “courier” in their briefs, and we therefore do so as well.
3

Santana originally signed a version of the Employment
Agreement that was effective March 1, 2017. She later agreed to
a version effective May 11, 2018. The relevant provisions are the
same in both versions.

6a
The Employment Agreement included a provision permitting Santana to opt out of the arbitration
provision. She did not do so.
2.

Santana’s Complaint

Santana filed her original complaint in this action on September 4, 2018. The complaint alleged a
single cause of action “on behalf of aggrieved employees” pursuant to the PAGA.
Santana claimed that Postmates willfully misclassified its couriers as independent contractors rather than employees to minimize costs. She alleged
that Postmates’s couriers are “under the control and
direction of POSTMATES in connection with the performance of their work, perform work that is part of
the usual course of POSTMATES’ business, and are
not customarily engaged in an independently established trade, occupation or business in the same nature of the work performed for POSTMATES.”
Santana alleged that Postmates’s misclassification of its couriers as independent contractors deprived her and other couriers of various statutory and
regulatory rights given to employees, including minimum wages, mandated meal breaks, rest breaks, premium payment for missed breaks, itemized wage
statements, timely payment of wages, and workers
compensation protection. Santana sought penalties,
attorney fees and costs “individually, and on behalf of
all aggrieved employees,” which, under the PAGA,
would be distributed 75 percent to the Labor and
Workforce Development Agency (Agency) and 25 percent to the aggrieved employees. (See § 2699, subd.
(i).)
Santana subsequently filed a first amended
complaint (FAC) to clarify that she sought only civil

7a
penalties under the PAGA and not any individual relief. Like her original complaint, Santana’s FAC
sought civil penalties under section 2699 along with
attorney fees and costs, and also clarified that Santana “is not seeking any sort of individualized (i.e., victim-specific) relief as described in Esparza v. KS Industries, L.P. ([2017]) 13 Cal.App.5th 1228 [(Esparza)].” 4
3.
Postmates’s Motion to Compel Arbitration
Postmates filed a petition to compel arbitration
on October 12, 2018. The petition acknowledged the
holding in Iskanian that PAGA waivers are unenforceable under state law. (See Iskanian, supra, 59
Cal.4th at p. 384.) However, Postmates argued that
the representative action waiver in the Employment
Agreement should be enforced because Epic Systems
undermined the basis for our Supreme Court’s holding in Iskanian. Postmates also argued that, even if
the holding in Iskanian still applied, Santana’s individual claims must be arbitrated.
4

Esparza held that an employee who asserts claims for individual, “victim-specific” relief along with a PAGA claim for civil
penalties may be compelled to arbitrate the individual claims.
(Esparza, supra, 13 Cal.App.5th at p. 1234.) In the trial court,
Postmates argued that Santana’s decision not to assert any claim
for individual relief meant that she was not an “aggrieved employee” and therefore lacked standing to sue under the PAGA.
(See § 2699, subds. (a) & (c).) The trial court did not reach the
issue, and Postmates has not raised it on appeal as an alternative ground for reversal. In any event, the argument has now
been foreclosed by our Supreme Court’s decision in Kim v. Reins
International California, Inc. (2020) 9 Cal.5th 73, 85 (Kim) [“The
statutory language reflects that the Legislature did not intend to
link PAGA standing to the maintenance of individual claims
when such claims have been alleged”].)

8a
In her opposition, Santana argued that Epic
Systems did not consider whether the FAA preempts
the state law rule established in Iskanian prohibiting
enforcement of PAGA waivers. She argued that the
trial court was therefore obligated to follow the holding in Iskanian. Santana also confirmed that she did
not seek individual remedies.
The trial court denied Postmates’s petition.
The court concluded that it was “bound by Iskanian”
because the United States Supreme Court did not decide the “same question differently” in Epic Systems.
And the court concluded that there were no claims for
individual relief to be arbitrated because Santana
sought only civil penalties in a representative claim
under the PAGA.
DISCUSSION
1.

Appealability

The absence of any request for individual relief
in Santana’s FAC suggests that this appeal may be
moot. Neither party has raised this issue, 5 but we
may examine it on our own initiative. (See City of Hollister v. Monterey Ins. Co. (2008) 165 Cal.App.4th 455,
479 (City of Hollister).)
Postmates requests that this court reverse the
trial court’s ruling and “order Santana to arbitrate
any and all claims against Postmates on an individual
basis.” But Santana’s FAC confirms that Santana asserts no such individual claims. And Postmates is not
entitled to, and apparently does not seek, arbitration

5

Nor has Santana raised as an alternative ground for affirmance that no arbitrable issue would exist even if Postmates
were to prevail on appeal.

9a
of Santana’s representative PAGA claim. The contractual provision on which Postmates relies is a representative action waiver, not an arbitration agreement. The representative action waiver in the Employment Agreement specifically states that “an arbitrator shall not have any authority to arbitrate a representative action.” Thus, if this provision is enforceable, the remedy would be dismissal, not arbitration. 6
However, Postmates’s appeal concerns the enforceability of one component of a broad arbitration
provision that is designed to ensure that any disputes
arising from a courier’s work for Postmates be decided
in arbitration rather than litigation. The statutory
right to appeal from an order denying arbitration is
intended to avoid the need for lengthy and expensive
litigation where parties have agreed to arbitrate their
disputes. (See Henry v. Alcove Investment, Inc. (1991)
233 Cal.App.3d 94, 99–100.) Dismissing this appeal
as moot would require the parties to proceed through
litigation to a final judgment before an appeal is considered. Considering the appeal now furthers the policy underlying the right to appeal from an order denying a claimed arbitration right.
Moreover, even when an appeal is technically
moot we may consider it if “ ‘there may be a recurrence
of the same controversy between the parties and the
parties have fully litigated the issues.’ ” (City of Hollister, supra, 165 Cal.App.4th at p. 480, quoting
6

Even if Santana had agreed to arbitrate her representative
PAGA claim, that agreement would likely not have been enforceable. (See Provost v. YourMechanic, Inc. (2020) 55 Cal.App.5th
982, 992 (Provost) [citing cases holding that “an aggrieved employee’s predispute agreement to arbitrate PAGA claims is unenforceable absent a showing the state also consented to the
agreement”].)

10a
Cucamongans United for Reasonable Expansion v.
City of Rancho Cucamonga (2000) 82 Cal.App.4th 473,
480.) Here, although there are no issues to arbitrate
no matter who prevails on appeal, if we were to dismiss this appeal as moot Postmates could raise the
same issue of the enforceability of Santana’s representative action waiver in a motion challenging Santana’s FAC or in a motion for summary judgment. Assuming that the trial court acted consistently in denying such a motion, the issue could then be raised in a
posttrial appeal.
Delaying consideration of an issue that has already been fully briefed on appeal and will likely recur
would “waste . . . judicial resources.” (See City of Hollister, supra, 165 Cal.App.4th at p. 480 [deciding appeal that, if dismissed as moot, would “only trigger another round of litigation, perhaps followed by yet another appeal”].) We therefore proceed to consider the
merits of the appeal.
2.

Epic Systems Did Not Decide the Same Issue as Iskanian Concerning the Enforceability of Representative Action Waivers

As in the trial court, Postmates argues on appeal that the United States Supreme Court’s decision
in Epic Systems abrogated the holding in Iskanian
concerning the enforceability of PAGA waivers. We
disagree.
In Iskanian, our Supreme Court considered the
enforceability of both PAGA waivers and class action
waivers in the context of employment contracts. The
court held that in light of the United States Supreme
Court decision in AT&T Mobility LLC v. Concepcion
(2011) 563 U.S. 333 (Concepcion) the state rule limiting class action waivers in employment contracts that

11a
our Supreme Court had previously established in Gentry v. Superior Court (2007) 42 Cal.4th 443 (Gentry)
was preempted by the FAA. (Iskanian, supra, 59
Cal.4th at p. 364.) The court also rejected the argument that class action waivers in employment contracts are invalid because class actions are a type of
concerted activity that is protected under the National
Labor Relations Act (NLRA) (29 U.S.C. § 151 et seq.).
The court held that, in light of Concepcion, a rule
against class action waivers is invalid because it interferes with “fundamental attributes of arbitration”
and there is no basis to conclude that the NLRA established a contrary rule that overrides “the FAA’s
mandate.” (Iskanian, supra, 59 Cal.4th at pp. 372–
373.)
However, with respect to a representative
PAGA claim, our Supreme Court held that: (1) a
waiver of the right to bring such a claim is invalid under state law, and (2) this state law rule is not
preempted by the FAA. (Iskanian, supra, 59 Cal.4th
at pp. 382–389.) The court explained that a representative PAGA claim is not a private action brought
by an individual or a class of individuals, but instead
is a type of qui tam action brought by a plaintiff on
behalf of the state. In that role, a PAGA plaintiff may
collect civil penalties for Labor Code violations, 75
percent of which go to the Agency and 25 percent of
which are awarded to the plaintiff. (§ 2699, subd. (i);
Iskanian, at pp. 380–382.) The court reasoned that
“the FAA aims to ensure an efficient forum for the resolution of private disputes, whereas a PAGA action is
a dispute between an employer and the state Agency.”
(Iskanian, at p. 384.)
Postmates acknowledges that this court must
follow the holding in Iskanian unless the United

12a
States Supreme Court has “decided the same question
differently.” (See Truly Nolen of America v. Superior
Court (2012) 208 Cal.App.4th 487, 507 (Truly Nolen).)
Postmates argues that the United States Supreme
Court did just that in Epic Systems.
In Epic Systems, the court did in fact decide one
of the same questions that our Supreme Court considered in Iskanian. Consistent with our Supreme
Court’s holding in Iskanian, the high court held that
the NLRA’s protection of the right of workers to engage in collective bargaining and other collective conduct, including the right “to engage in other concerted
activities for the purpose of . . . other mutual aid or
protection” does not override the FAA’s protection of
the right to agree to individual arbitration in lieu of
class actions. (29 U.S.C. § 157; see Epic Systems, supra, 138 S.Ct. at pp. 1625–1627.) But that issue is not
the one that is relevant here. The high court did not
consider or decide the issue our Supreme Court decided in Iskanian that controls the outcome in this
case—i.e., whether the FAA preempts a state law rule
prohibiting waiver of a worker’s right to bring a representative action on behalf of the state.
There was no need in Epic Systems for the court
to address representative actions at all, and the court
did not do so. Rather, as the court explained, the question at issue in that case was whether employees and
employers should “be allowed to agree that any disputes between them will be resolved through one-onone arbitration? Or should employees always be permitted to bring their claims in class or collective actions, no matter what they agreed with their employers?” (Epic Systems, supra, 138 S.Ct. at p. 1619, italics added.)

13a
Answering that question did not require the
court to decide whether a worker may waive the right
to bring a representative action on behalf of a state
government. Nor did it require the court to address
the fundamental ground of our Supreme Court’s decision in Iskanian. As discussed, the court in Iskanian
held that a PAGA action is not an individual dispute
at all, but is an action brought on behalf of the state
by an aggrieved employee who is designated by statute to be a proper representative to bring such an action.
Thus, it is clear that the United States Supreme Court did not consider the same issue concerning PAGA waivers as our Supreme Court decided in
Iskanian, much less reach a contrary conclusion.
Whether the high court might someday do so is not
the issue. Nor is it our task to analyze the United
States Supreme Court’s reasoning and language to
predict how the court might rule if the issue is ultimately presented to it. As the court explained in
Truly Nolen, with respect to federal statutory issues
“intermediate appellate courts in California are absolutely bound to follow the decisions of the California
Supreme Court, unless the United States Supreme
Court has decided the same question differently.”
(Truly Nolen, supra, 208 Cal.App.4th at p. 507.) That
is true even if the high court decides some other issue
in a way that casts doubt on our Supreme Court’s
holding. (Ibid. [concluding that the court must follow
our Supreme Court’s decision in Gentry even though
the United States Supreme Court’s decision in Concepcion “implicitly disapproved the reasoning of the
Gentry court”].)
Postmates’s reliance on general language in
Epic Systems directing that arbitration agreements

14a
must be enforced “according to their terms” is therefore unpersuasive. In Epic Systems, the high court did
not address the specific issue underlying our Supreme
Court’s holding in Iskanian. The court’s general language in Epic Systems concerning the primacy of the
FAA does not contradict our Supreme Court’s holding
that the objectives of the FAA are not at stake in a
representative PAGA action because such an action is
not a private dispute. (See Iskanian, supra, 59
Cal.4th at p. 384.)
Our Supreme Court has not directly addressed
whether its holding in Iskanian survives Epic Systems. However, in several cases decided after Epic
Systems, the court has emphasized the representative
nature of a PAGA action. That of course is the key
factor underlying the court’s decision in Iskanian that
the FAA does not preempt the state rule prohibiting
waiver of PAGA claims.
In Kim, the court held that an employee does
not lose standing to pursue a representative PAGA
claim by settling his or her individual claims for Labor
Code violations. (Kim, supra, 9 Cal.5th at p. 80.) The
court confirmed that a PAGA claim is “legally and conceptually different from an employee’s own suit for
damages and statutory penalties.” (Id. at p. 81.) The
court cited its conclusion in Iskanian that “a PAGA
claim is an enforcement action between the [Agency]
and the employer, with the PAGA plaintiff acting on
behalf of the government.” (Id. at p. 86.)
In ZB, N.A. v. Superior Court (2019) 8 Cal.5th
175 (ZB) the court held that some individual compensatory remedies are not available in a representative
PAGA action. (Id. at p. 182.) In doing so, the court
cited its holding in Iskanian that predispute waivers
of the right to bring such a representative action are

15a
unenforceable, affirming its conclusion that “the FAA
did not preempt this rule or otherwise require enforcement of such a waiver in an arbitration agreement.”
(Id. at p. 185, citing Iskanian, supra, 59 Cal.4th at pp.
384–389.)
In addition, several Court of Appeal decisions,
including a prior decision by this court, have either
held or assumed that the state rule prohibiting PAGA
waivers announced in Iskanian survives Epic Systems. In Correia v. NB Baker Electric, Inc. (2019) 32
Cal.App.5th 602 (Correia), Division One of the Fourth
Appellate District rejected the argument that Postmates makes here. The court cited Iskanian’s holding
that “a ban on bringing PAGA actions in any forum
violates public policy and that this rule is not
preempted by the FAA because the claim is a governmental claim.” (Id. at p. 619.) The court noted that
Epic Systems concerned a different issue concerning
the enforceability of an “individualized arbitration
agreement” in light of the NLRA. The court concluded
that Epic Systems therefore did not “decide the same
question differently.” (Ibid.) 7 In Provost, that same
7

Postmates attempts to distinguish Correia on the ground
that, unlike the Employment Agreement at issue here, the arbitration agreement in that case did not include an opt-out provision. The difference is irrelevant to the only argument that Postmates makes on appeal. Postmates argues that, under Epic Systems, the FAA preempts the state law rule announced in Iskanian that PAGA claims are nonwaivable. By preserving the
option of pursuing a PAGA claim for aggrieved employees, an
opt-out provision might be relevant to the applicability of that
state law rule. But Postmates does not explain why such a provision has any bearing on whether the FAA preempts it. In any
event, the opportunity to opt out of a PAGA waiver provision before the inception of any dispute has been repeatedly rejected as

16a
court subsequently reaffirmed its ruling in Correia
that “Epic did not overrule Iskanian.” (Provost, supra,
55 Cal.App.5th at p. 997.) And another division of the
Fourth District has followed Correia “in holding that
[Epic Systems] does not undermine the reasoning of
Iskanian.”
(Collie v. The Icee Co. (2020) 52
Cal.App.5th 477, 480.)
Division Two of the First Appellate District also
recently adopted the holding in Correia. In Olson v.
Lyft, Inc. (2020) 56 Cal.App.5th 862, the court concluded that Correia had “thoughtfully analyzed” and
rejected the argument that Iskanian is no longer good
law in light of Epic Systems. (Id. at p. 864.) And in
Zakaryan v. The Men’s Wearhouse, Inc. (2019) 33
Cal.App.5th 659, 671 (Zakaryan), in the course of deciding a different issue, this court cited Correia in noting that “Epic Systems did not overturn Iskanian, as
only Iskanian deals with a ‘claim for civil penalties
brought on behalf of the government.’ ” 8
Consistent with these cases, we conclude that
Epic Systems did not decide the same issue concerning
a defense to unenforceability under the court’s rationale in Iskanian. (See Juarez v. Wash Depot Holdings, Inc. (2018) 24
Cal.App.5th 1197, 1203; Williams v. Superior Court (2015) 237
Cal.App.4th 642, 647–648; Securitas Security Services USA, Inc.
v. Superior Court (2015) 234 Cal.App.4th 1109, 1121–1122; see
also Provost, supra, 55 Cal.App.5th at pp. 993–994.)
8

Our Supreme Court disapproved Zakaryan on an unrelated
ground. Zakaryan held that an employee’s PAGA claim seeking
remedies under section 558 could not be split between an arbitrable claim for underpaid wages and a PAGA claim for statutory
penalties. (See Zakaryan, supra, 33 Cal.App.5th at p. 671.) In
ZB, our Supreme Court disapproved that holding to the extent
that it is inconsistent with the court’s holding in ZB that “unpaid
wages under section 558 may not be recovered through a PAGA
action.” (ZB, supra, 8 Cal.5th at p. 196, fn. 8.)

17a
the enforceability of PAGA waivers that our Supreme
Court decided in Iskanian. We therefore follow Iskanian in affirming the trial court’s order denying
Postmates’s petition for arbitration.
DISPOSITION
The trial court’s order is affirmed. Santana is
entitled to her costs on appeal.
NOT TO BE PUBLISHED.

We concur:

ASHMANN-GERST, J.

CHAVEZ, J.

LUI, P. J.

18a
APPENDIX C
R. Rex Parris (SBN 96567)
Kitty K. Szeto (SBN 258136)
John M. Bickford (SBN 280929)
Ryan A. Crist (SBN 316653)
PARRIS LAW FIRM
43364 10th Street West
Lancaster, California 93534
Telephone: (661) 949-2595
Facsimile: (661) 949-7524
Attorneys for Plaintiff WENDY SANTANA and the
Aggrieved Employees
(Additional counsel listed on next page)
SUPERIOR COURT OF THE STATE OF CALIFORNIA
FOR THE COUNTY OF LOS ANGELES
________________________
WENDY SANTANA, an individual, of behalf of the
aggrieved employees pursuant to the Private Attorney General Act (“PAGA”),
Plaintiff,
v.
POSTMATES, INC., a Delaware Corporation; and
DOES 1 through 100, inclusive,
Defendants.
________________________
Case No.: BC720151
Related Case No: Lead Case BC712974

19a
[Assigned for all purposes to the Honorable Rafael A.
Ongkeko, Dept. 73]
[PROPOSED] ORDER DENYING DEFENDANT
POSTMATES INC.’S PETITIONS TO COMPEL
ARBITRATION
Brown Complaint Filed:
Santana Complaint Filed:
Trial Date:

July 6, 2018
September, 4, 2018
None Set

________________________
Jeremy F. Bollinger (SBN 240132)
Dennis F. Moss (SBN 77512)
Ari E. Moss (SBN 238579
MOSS BOLLINGER LLP
15300 Ventura Blvd., Ste. 207
Sherman Oaks, California 91403
Telephone: (310) 982-2984
Facsimile: (818) 963-5954
jeremy@mossbollinger.com
dennis@mossbollinger.com
ari@mossbollinger.com
Attorneys for Plaintiff DAMONE BROWN

20a
Defendant Postmates, Inc.’s (Postmates) Petition to Compel Arbitration in Brown v. Postmates,
Inc., No. BC712974 and Petition to Compel Arbitration Santana v. Postmates, Inc., No. BC720151 came
on hearing on January 22, 2019 at approximately 8:30
a.m. Having heard and considered the papers and arguments presented, the Court makes these findings of
fact and conclusions of law:
1.
In Iskanian v. CLS Transportation Los
Angeles, LLC (2014) 59 Cal.4th 348 (Iskanian), the
California Supreme Court held that “an employee’s
right to bring a PAGA action is unwaivable” (id. at p.
383), and an agreement that purports to waive this
right “is contrary to public policy and unenforceable
as a matter of law” (id. at p. 384). It further held that
“a PAGA claim lies outside the FAA’s coverage because it is not a dispute between an employer and an
employee arising out of their contractual relationship.
It is a dispute between an employer and the state,
which alleges directly or through its agents—either
the Labor and Workforce Development Agency or aggrieved employees— that the employer has violated
the Labor Code. (Id. at pp. 386–387, italics in original.) This is because “[n]othing in the text or legislative history of the FAA nor in the Supreme Court’s
construction of the statute suggest that the FAA was
intended to limit the ability of states to enhance their
public enforcement capabilities by enlisting willing
employees in qui tam actions. Representative actions
under PAGA, unlike class action suits for damages, do
not displace the bilateral arbitration of private disputes between employers and employees over their respective rights and obligations toward each other. Instead, they directly enforce the state’s interest in penalizing and deterring employers who violate California’s labor laws.” (Id. at p. 387.)

21a
2.
This Court is bound by Iskanian. “[O]n
federal statutory issues, intermediate appellate
courts in California,” along with trial courts, “are absolutely bound to follow the decisions of the California
Supreme Court, unless the United States Supreme
Court has decided the same question differently.”
(Truly Nolen of America v. Superior Court (2012) 208
Cal.App.4th 487, 507, italics in original.)
3.
The United States Supreme Court has
not decided the same question differently. Epic Systems Corp. v. Lewis (2018) 138 S.Ct. 1612 (Epic Systems) held that class and collective waivers in employment agreements are enforceable despite the fact that
the National Labor Relations Act guarantees the right
of employees to engage protected concerted activities.
It did not address PAGA or whether “the FAA was intended to limit the ability of states to enhance their
public enforcement capabilities by enlisting willing
employees in qui tam actions.” (Iskanian, supra, 59
Cal.4th 387.)
4.
Additionally, the Court finds Iskanian
persuasive and would follow it even if it weren’t controlling. Class actions are fundamentally different
than representative actions. As Iskanian states: “Our
opinion today would not permit a state to circumvent
the FAA by, for example, deputizing employee A to
bring a suit for the individual damages claims of employees B, C, and D. This pursuit of victim-specific
relief by a party to an arbitration agreement on behalf
of other parties to an arbitration agreement would be
tantamount to a private class action, whatever the
designation given by the Legislature. Under Concepcion, such an action could not be maintained in the
face of a class waiver. Here, importantly, a PAGA lit-

22a
igant’s status as ‘the proxy or agent’ of the state [citation] is not merely semantic; it reflects a PAGA litigant’s substantive role in enforcing our labor laws on
behalf of state law enforcement agencies. Our FAA
holding applies specifically to a state law rule barring
predispute waiver of an employee’s right to bring an
action that can only be brought by the state or its representatives, where any resulting judgment is binding
on the state and any monetary penalties largely go to
state coffers.” (Id. at pp. 387–388.)
5.
The Court recognizes that Esparza v. KS
Industries, L.P. (2017) 13 Cal.App.5th 1228 holds that
claims for individualized relief under PAGA are not
exempt from arbitration under Iskanian. But neither
Plaintiff is seeking individualized relief. Their complaints clearly state they are seeking civil penalties
only, which will be distributed 75% to the LWDA and
25% to the aggrieved employees. No reasonable reading of the two complaints suggests differently. Both
Plaintiffs also reaffirmed this fact in their oppositions
and at the hearing on Postmates’ two petitions.
6.
Lastly, Postmates argues in its two replies that these cases should be stayed pending the
resolution of four earlier-filed PAGA actions. But the
Court will not consider arguments raised for the first
time in a reply. Additionally, even if Postmates had
timely raised it, the Court would reject the argument.
(See Tan v. GrubHub, Inc. (N.D. Cal. 2016) 171
F.Supp.3d 998, 1011–1013.)
7.
Based on forgoing findings of facts and
conclusions of law, the Court denies Postmates’ Petition to Compel Arbitration in Brown v. Postmates,
Inc., No. BC712974 and Petition to Compel Arbitration Santana v. Postmates, Inc., No. BC720151.

23a
8.
A Case Management Conference is set
for April 5, 2019 at 8:30 a.m.
IT IS SO ORDERED
DATE: _
03/12/2019_____

______________________
The Honorable Rafael
A. Ongkeko Los Angeles
County Superior Court

24a
APPENDIX D
Statutory Provisions Involved
9 U.S.C § 2. Validity, irrevocability, and enforcement of agreements to arbitrate
A written provision in any maritime transaction or a contract evidencing a transaction involving
commerce to settle by arbitration a controversy
thereafter arising out of such contract or transaction,
or the refusal to perform the whole or any part
thereof, or an agreement in writing to submit to arbitration an existing controversy arising out of such a
contract, transaction or refusal, shall be valid, irrevocable, and enforceable, save upon such grounds as
exist at law or in equity for the revocation of any contract.
(July 30, 1947, ch. 392, 61 Stat. 670.)
DERIVATION
Act Feb. 12, 1925, ch. 213, § 2, 43 Stat. 883.

25a
California Labor Code § 2699
(a) Notwithstanding any other provision of law, any
provision of this code that provides for a civil penalty
to be assessed and collected by the Labor and Workforce Development Agency or any of its departments,
divisions, commissions, boards, agencies, or employees, for a violation of this code, may, as an alternative, be recovered through a civil action brought by
an aggrieved employee on behalf of himself or herself
and other current or former employees pursuant to
the procedures specified in Section 2699.3.
(b) For purposes of this part, “person” has the same
meaning as defined in Section 18.
(c) For purposes of this part, “aggrieved employee”
means any person who was employed by the alleged
violator and against whom one or more of the alleged
violations was committed.
(d) For purposes of this part, “cure” means that the
employer abates each violation alleged by any aggrieved employee, the employer is in compliance with
the underlying statutes as specified in the notice required by this part, and any aggrieved employee is
made whole. A violation of paragraph (6) or (8) of
subdivision (a) of Section 226 shall only be considered cured upon a showing that the employer has
provided a fully compliant, itemized wage statement
to each aggrieved employee for each pay period for
the three-year period prior to the date of the written
notice sent pursuant to paragraph (1) of subdivision
(c) of Section 2699.3.
(e)
(1) For purposes of this part, whenever the Labor and Workforce Development Agency, or

26a
any of its departments, divisions, commissions, boards, agencies, or employees, has discretion to assess a civil penalty, a court is authorized to exercise the same discretion, subject to the same limitations and conditions, to
assess a civil penalty.
(2) In any action by an aggrieved employee
seeking recovery of a civil penalty available
under subdivision (a) or (f), a court may award
a lesser amount than the maximum civil penalty amount specified by this part if, based on
the facts and circumstances of the particular
case, to do otherwise would result in an award
that is unjust, arbitrary and oppressive, or
confiscatory.
(f) For all provisions of this code except those for
which a civil penalty is specifically provided, there is
established a civil penalty for a violation of these
provisions, as follows:
(1) If, at the time of the alleged violation, the
person does not employ one or more employees, the civil penalty is five hundred dollars
($500).
(2) If, at the time of the alleged violation, the
person employs one or more employees, the
civil penalty is one hundred dollars ($100) for
each aggrieved employee per pay period for
the initial violation and two hundred dollars
($200) for each aggrieved employee per pay period for each subsequent violation.
(3) If the alleged violation is a failure to act by
the Labor and Workplace Development
Agency, or any of its departments, divisions,

27a
commissions, boards, agencies, or employees,
there shall be no civil penalty.
(g)
(1) Except as provided in paragraph (2), an aggrieved employee may recover the civil penalty
described in subdivision (f) in a civil action
pursuant to the procedures specified in Section
2699.3 filed on behalf of himself or herself and
other current or former employees against
whom one or more of the alleged violations
was committed. Any employee who prevails in
any action shall be entitled to an award of reasonable attorney’s fees and costs, including
any filing fee paid pursuant to subparagraph
(B) of paragraph (1) of subdivision (a) or subparagraph (B) of paragraph (1) of subdivision
(c) of Section 2699.3. Nothing in this part shall
operate to limit an employee’s right to pursue
or recover other remedies available under
state or federal law, either separately or concurrently with an action taken under this
part.
(2) No action shall be brought under this part
for any violation of a posting, notice, agency
reporting, or filing requirement of this code,
except where the filing or reporting requirement involves mandatory payroll or workplace
injury reporting.
(h) No action may be brought under this section by
an aggrieved employee if the agency or any of its departments, divisions, commissions, boards, agencies,
or employees, on the same facts and theories, cites a
person within the timeframes set forth in Section
2699.3 for a violation of the same section or sections

28a
of the Labor Code under which the aggrieved employee is attempting to recover a civil penalty on behalf of himself or herself or others or initiates a proceeding pursuant to Section 98.3.
(i) Except as provided in subdivision (j), civil penalties recovered by aggrieved employees shall be distributed as follows: 75 percent to the Labor and
Workforce Development Agency for enforcement of
labor laws, including the administration of this part,
and for education of employers and employees about
their rights and responsibilities under this code, to
be continuously appropriated to supplement and not
supplant the funding to the agency for those purposes; and 25 percent to the aggrieved employees.
(j) Civil penalties recovered under paragraph (1) of
subdivision (f) shall be distributed to the Labor and
Workforce Development Agency for enforcement of
labor laws, including the administration of this part,
and for education of employers and employees about
their rights and responsibilities under this code, to
be continuously appropriated to supplement and not
supplant the funding to the agency for those purposes.
(k) Nothing contained in this part is intended to alter
or otherwise affect the exclusive remedy provided by
the workers’ compensation provisions of this code for
liability against an employer for the compensation
for any injury to or death of an employee arising out
of and in the course of employment.
(l)
(1) For cases filed on or after July 1, 2016, the
aggrieved employee or representative shall,
within 10 days following commencement of a
civil action pursuant to this part, provide the

29a
Labor and Workforce Development Agency
with a file-stamped copy of the complaint that
includes the case number assigned by the
court.
(2) The superior court shall review and approve any settlement of any civil action filed
pursuant to this part. The proposed settlement
shall be submitted to the agency at the same
time that it is submitted to the court.
(3) A copy of the superior court’s judgment in
any civil action filed pursuant to this part and
any other order in that action that either provides for or denies an award of civil penalties
under this code shall be submitted to the
agency within 10 days after entry of the judgment or order.
(4) Items required to be submitted to the Labor and Workforce Development Agency under
this subdivision or to the Division of Occupational Safety and Health pursuant to paragraph (4) of subdivision (b) of Section 2699.3,
shall be transmitted online through the same
system established for the filing of notices and
requests under subdivisions (a) and (c) of Section 2699.3.
(m) This section shall not apply to the recovery of administrative and civil penalties in connection with
the workers’ compensation law as contained in Division 1 (commencing with Section 50) and Division 4
(commencing with Section 3200), including, but not
limited to, Sections 129.5 and 132a.
(n) The agency or any of its departments, divisions,
commissions, boards, or agencies may promulgate
regulations to implement the provisions of this part.

30a
(Amended by Stats. 2016, Ch. 31, Sec. 189. (SB 836)
Effective June 27, 2016.)

